App. 1
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0184p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
-----------------------------------------------------------------------

HARLEY BLANTON,
Plaintiff,
DEREK PIERSING, on Behalf of
Himself and All Others Similarly
Situated,

No. 19-2388

Plaintiff-Appellant,
v.
DOMINO’S PIZZA FRANCHISING LLC;
DOMINO’S PIZZA MASTER ISSUER
LLC; DOMINO’S PIZZA LLC;
DOMINO’S PIZZA, INC.,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of Michigan at Detroit,
No. 2:18-cv-13207—Victoria A. Roberts, District Judge.
Argued: June 10, 2020
Decided and Filed: June 17, 2020
Before: GRIFFIN, THAPAR, and READLER,
Circuit Judges.
-----------------------------------------------------------------------

App. 2
COUNSEL
ARGUED: Anne B. Shaver, LIEFF CABRASER
HEIMANN & BERNSTEIN, LLP, San Francisco, California, for Appellant. Norman M. Leon, DLA PIPER
LLP (US), Chicago, Illinois, for Appellees. ON BRIEF:
Anne B. Shaver, Dean M. Harvey, Lin Y. Chan, Yaman
Salahi, Jeremy J. Pilaar, LIEFF CABRASER
HEIMANN & BERNSTEIN, LLP, San Francisco, California, Derek Y. Brandt, Leigh M. Perica, McCUNE
WRIGHT AREVALO, LLP, Edwardsville, Illinois, Sharon S. Almonrode, Emily E. Hughes, Dennis A.
Lienhardt, THE MILLER LAW FIRM, P.C., Rochester,
Michigan, for Appellant. Norman M. Leon, J. Robert
Robertson, John J. Hamill, Michael S. Pullos, Mary M.
Shepro, DLA PIPER LLP (US), Chicago, Illinois, David
H. Bamberger, DLA PIPER LLP (US), Washington,
D.C., Edward J. Hood, CLARK HILL PLC, Detroit,
Michigan, for Appellees.
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

THAPAR, Circuit Judge. Derek Piersing and
Domino’s Pizza disagree about whether he should
have to arbitrate his claims against the company. As
in many arbitration cases, the question here is who
should resolve their dispute: an arbitrator or a court.
The district court held that an arbitrator should do so.
We agree and affirm.

App. 3
I.
Domino’s has thousands of pizza restaurants across
the country. Like other large chains, Domino’s operates
many of these restaurants through a franchise model.
Each franchise is an independently owned and managed business with a separate legal identity. But
Domino’s still controls certain aspects of each franchise. Relevant here, Domino’s allegedly required its
franchises to agree not to solicit or hire employees from
other franchises without the prior consent of their employer.
Piersing began working at a Domino’s franchise in
Washington state in the fall of 2014. Four years later,
Piersing sought a second job from a different Domino’s
franchise in the area. When he was hired by the second
franchise, Piersing signed an arbitration agreement,
which requires him to arbitrate a wide array of issues
related to his employment. The agreement also specifies that the arbitration will be conducted according to
the American Arbitration Association National Rules
for the Resolution of Employment Disputes (“AAA
Rules”).
Around the same time, Piersing learned that he
had been fired from the first franchise. According to
Piersing, the store fired him because it thought that its
franchise agreement with Domino’s required it to do so
in order to allow him to work at the second franchise.
Piersing worked at the second franchise for a few
months until he left his job because of a medical condition.

App. 4
Piersing and another plaintiff then filed a class
action against Domino’s, alleging that the company’s
franchise agreement violated federal antitrust law as
well as state law. Domino’s soon moved to compel arbitration under the Federal Arbitration Act. See 9 U.S.C.
§ 1 et seq. The plaintiffs opposed the motion, arguing
that Domino’s couldn’t enforce the arbitration agreements because the company hadn’t signed the agreements (only their franchises had). But the district
court ordered the plaintiffs to go to arbitration anyway,
finding that both Piersing and his co-plaintiff had
agreed to arbitrate not only the merits of certain
claims but also threshold questions about the agreements themselves. This appeal followed.
II.
To understand this case, you first need a little
background about federal arbitration law. The Federal
Arbitration Act reflects the basic principles that “arbitration is a matter of contract” and that contracts must
be enforced “according to their terms.” Rent-A-Center,
W., Inc. v. Jackson, 561 U.S. 63, 67 (2010). As a corollary,
the Supreme Court has recognized that “parties may
agree to have an arbitrator decide not only the merits of a particular dispute but also ‘gateway’ questions of ‘arbitrability,’ such as whether the parties
have agreed to arbitrate or whether their agreement
covers a particular controversy.” Henry Schein, Inc. v.
Archer & White Sales, Inc., 139 S. Ct. 524, 529 (2019)
(cleaned up). After all, such an agreement is “simply an
additional, antecedent agreement” about who should

App. 5
decide these questions. Rent-A-Center, 561 U.S. at 69.
And when parties have agreed to arbitrate “arbitrability,” a court may not disregard their agreement—even
if a particular argument for arbitration seems to be
“wholly groundless.” Henry Schein, 139 S. Ct. at 528–
31.
That leaves the question of how to determine
whether the parties have agreed to arbitrate “arbitrability.” Usually, courts look to state law to interpret
arbitration agreements. See, e.g., Lamps Plus, Inc. v.
Varela, 139 S. Ct. 1407, 1414–15 (2019). (Here, all
agree that Washington contract law applies.) But for
questions of “arbitrability,” the Supreme Court has
adopted an additional interpretive rule: there must be
“clear and unmistakable” evidence that the parties
agreed to have an arbitrator decide such issues. First
Options of Chi., Inc. v. Kaplan, 514 U.S. 938, 944 (1995)
(cleaned up); see also Rent-A-Center, 561 U.S. at 69 n.1
(describing this “heightened standard”). In effect, this
rule reverses the usual presumption in favor of arbitration when it comes to questions of “arbitrability.”
See First Options, 514 U.S. at 944–45.
That brings us to the question in this case. In his
arbitration agreement, Piersing agreed that “[t]he
American Arbitration Association (‘AAA’) will administer the arbitration and the arbitration will be conducted in accordance with then-current [AAA Rules].”
R. 61-4, Pg. ID 982. And those Rules provide that “[t]he
arbitrator shall have the power to rule on his or her
own jurisdiction, including any objections with respect
to the existence, scope or validity of the arbitration

App. 6
agreement.” R. 61-6, Pg. ID 989. The question for us is
whether that’s “clear and unmistakable” evidence that
Piersing agreed to arbitrate “arbitrability.”1
There are good reasons to think it is. To start, the
AAA Rules clearly empower an arbitrator to decide
questions of “arbitrability”—for instance, questions
about the “scope” of the agreement. And it’s long been
settled that parties can incorporate outside documents into a contract if their agreement says as much.
See, e.g., W. Wash. Corp. of Seventh-Day Adventists v.
Ferrellgas, Inc., 7 P.3d 861, 865 (Wash. Ct. App. 2000);
11 Williston on Contracts § 30:25 (4th ed. 2012). Piersing’s agreement says as much: it expressly incorporates the AAA Rules into the agreement and even
helpfully includes a link to the AAA’s website, from
which one can easily access the Rules. On its own
1

On that point, we should clarify one question not before us.
The underlying dispute in this case is whether Domino’s (as a
non-signatory) has any right to enforce the arbitration agreement
as a whole. And both parties have litigated this case on the view
that the first question we must answer is whether Piersing agreed
to arbitrate that question of “arbitrability.” But there might be
another, antecedent question here—namely, whether Domino’s
has any right to enforce the specific provision of the agreement
in which Piersing purportedly agreed to arbitrate “arbitrability.”
Cf. Rent-A-Center, 561 U.S. at 69–71 (treating the broader arbitration agreement as separate from the specific agreement to arbitrate “arbitrability” and distinguishing between challenges to
the former and challenges to the latter). Because that is a distinct
question that is not before us, we express no views on it. See
United States v. Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020) (reiterating the “principle of party presentation” under which courts
“rely on the parties to frame the issues for decision” and decide
only the “matters the parties present” (citation omitted)).

App. 7
terms, that’s pretty compelling evidence that Piersing
agreed to arbitrate “arbitrability.”
What the text suggests the case law confirms. The
Supreme Court has itself said that the AAA Rules “provide that arbitrators have the power to resolve arbitrability questions.” Henry Schein, 139 S. Ct. at 528. And
the Court has itself relied on the incorporation of
the AAA Rules to determine what the parties agreed
to. See Preston v. Ferrer, 552 U.S. 346, 361–63 (2008);
C & L Enters., Inc. v. Citizen Band Potawatomi Indian
Tribe of Okla., 532 U.S. 411, 418–20 (2001). It’s true
that the Court has yet to put these pieces together so
as to resolve the question in this case. See Henry
Schein, 139 S. Ct. at 531. But there’s no reason for our
court to wait to finish the puzzle. There’s little doubt
about the final picture.
Our own circuit’s precedent counsels—and perhaps compels—the same outcome. In a recent decision,
our court relied on the incorporation of the AAA Rules
to find that the parties had “clearly and unmistakably”
agreed to arbitrate “arbitrability.” McGee v. Armstrong,
941 F.3d 859, 866 (6th Cir. 2019) (citation omitted). To
be sure, our decision also pointed to another provision
in the agreement during the course of its analysis. But
that provision simply described the procedures by
which the parties had to raise questions of “arbitrability” before the arbitrator; it didn’t purport to expand
the arbitrator’s authority to decide such questions. See
id. So it’s unclear what (if anything) the provision
added to the court’s analysis. See In re: Auto. Parts Antitrust Litig., 951 F.3d 377, 382 (6th Cir. 2020) (reading

App. 8
McGee as holding that the incorporation of the AAA
Rules “shows that the parties ‘clearly and unmistakably’ agreed that the arbitrator would decide questions
of arbitrability” (citation omitted)).
What’s more, district courts in our circuit have
long found that the incorporation of the AAA Rules
provides “clear and unmistakable” evidence that the
parties agreed to arbitrate “arbitrability.” See, e.g.,
Cornett v. Cmco Mortg., LLC, Civ. No. 12-169-ART,
2012 WL 12925599, at *2 (E.D. Ky. Nov. 9, 2012); see
also Willacy v. Marotta, 683 F. App’x 468, 477 (6th Cir.
2017) (White, J., concurring). Just another persuasive
reason for us to do the same.
Finally, consider that every one of our sister circuits to address the question—eleven out of twelve by
our count—has found that the incorporation of the
AAA Rules (or similarly worded arbitral rules) provides “clear and unmistakable” evidence that the parties agreed to arbitrate “arbitrability.” See Awuah v.
Coverall N. Am., Inc., 554 F.3d 7, 11–12 (1st Cir. 2009);
Contec Corp. v. Remote Sol., Co., 398 F.3d 205, 208–09
(2d Cir. 2005); Richardson v. Coverall N. Am., Inc., ___
F. App’x ___, 2020 WL 2028523, at *2–3 (3d Cir. 2020);
Simply Wireless, Inc v. T-Mobile US, Inc., 877 F.3d 522,
527–28 (4th Cir. 2017) (same for the “substantively
identical” JAMS Rules), abrogated on other grounds
by Henry Schein, 139 S. Ct. 524; Petrofac, Inc. v. DynMcDermott Petrol. Operations Co., 687 F.3d 671, 675
(5th Cir. 2012); Fallo v. High-Tech Inst., 559 F.3d 874,
878 (8th Cir. 2009); Brennan v. Opus Bank, 796 F.3d
1125, 1130–31 (9th Cir. 2015); Dish Network L.L.C. v.

App. 9
Ray, 900 F.3d 1240, 1246 (10th Cir. 2018); Terminix
Int’l Co., LP v. Palmer Ranch Ltd. P’ship, 432 F.3d 1327,
1332 (11th Cir. 2005); Qualcomm Inc. v. Nokia Corp.,
466 F.3d 1366, 1372–73 (Fed. Cir. 2006), abrogated on
other grounds by Henry Schein, 139 S. Ct. 524; Chevron
Corp. v. Ecuador, 795 F.3d 200, 207–08 (D.C. Cir. 2015)
(same for the United Nations Commission on International Trade Law Rules). And the one remaining circuit
has precedent suggesting that it would join this consensus. See Commonwealth Edison Co. v. Gulf Oil
Corp., 541 F.2d 1263, 1272–73 (7th Cir. 1976) (relying
on the incorporation of the AAA Rules to find that the
parties had agreed to binding arbitration). Indeed, it’s
possible that our circuit has already joined too. See
McGee, 941 F.3d at 866. But to the extent that there’s
any ambiguity in our prior decisions, we officially do so
today.
III.
All that’s straightforward enough. But both parties raise some arguments in response. Some of these
arguments require a bit of explanation. None change
our final decision.
A.
Domino’s argues about the correct choice of law.
The company says that the question here—whether
there’s “clear and unmistakable” evidence that the parties agreed to arbitrate “arbitrability”—presents a
question of state law, not federal law. It’s true that

App. 10
some courts have described the question in this way.
See, e.g., Dish Network, 900 F.3d at 1246; Wells Fargo
Advisors, LLC v. Sappington, 884 F.3d 392, 396–99 (2d
Cir. 2018). But these decisions seem to conflate the
questions of contract formation and interpretation
(which generally involve state law) with the question
whether a particular agreement satisfies the “clear
and unmistakable” standard (which seems to be one of
federal law). See, e.g., Arnold v. Homeaway, Inc., 890
F.3d 546, 552 & n.4 (5th Cir. 2018); Brennan, 796 F.3d
at 1128–30; see also Dish Network, 900 F.3d at 1252 n.1
(Tymkovich, C.J., concurring).
To see why, consider the Supreme Court’s leading
case on the “clear and unmistakable” standard. See
First Options, 514 U.S. 938. That decision explained
that courts should generally “apply ordinary state-law
principles that govern the formation of contracts” in
arbitration cases but then added a “qualification.” Id.
at 944. The “qualification” was that “[c]ourts should not
assume that the parties agreed to arbitrate arbitrability unless there is ‘clear and unmistakable’ evidence
that they did so.” Id. (cleaned up). The Supreme Court
then analyzed for itself whether there was “clear and
unmistakable” evidence that the parties had agreed to
arbitrate “arbitrability.” See id. at 946. Nothing in this
analysis suggests that this new standard should be
governed by state law. Nor have later decisions suggested anything different. See, e.g., Rent-A-Center, 561
U.S. at 69 n.1 (describing the standard as an “interpretive rule” created by the Supreme Court (citation omitted)).

App. 11
In any event, Washington courts have also found
that the incorporation of the AAA Rules (or similarly
worded arbitral rules) provide “clear and unmistakable” evidence that the parties agreed to arbitrate “arbitrability.” See In re Estate of Anches, No. 78732-2-I,
2019 WL 3417100, at *2 (Wash. Ct. App. July 29, 2019);
Raven Offshore Yacht, Shipping, LLP v. F.T. Holdings,
LLC, 400 P.3d 347, 349–50 (Wash. Ct. App. 2017) (same
for similarly worded Maritime Arbitration Association
Rules). And Piersing hasn’t give us any reason to think
that the Washington Supreme Court would ultimately
adopt the minority view in this debate. So in the end,
the choice of law makes no difference here.
B.
For his part, Piersing offers several arguments
why we should be the first circuit court in the country
to find that the incorporation of the AAA Rules doesn’t
provide “clear and unmistakable” evidence that he
agreed to arbitrate “arbitrability.” None prove persuasive.
The Arbitration Agreement. Piersing argues that
his arbitration agreement incorporates the AAA Rules
only as to claims that fall within the scope of the agreement. In other words, he thinks that a court must first
determine whether the agreement covers a particular
claim before the arbitrator has any authority to address its jurisdiction. But nothing in the relevant provision limits the incorporation in this way. Instead, it
simply provides that “the arbitration will be conducted

App. 12
in accordance with then-current. [AAA Rules].” R. 614, Pg. ID 982. Other courts have read similar references to “arbitration” or “the arbitration” as generally
authorizing an arbitrator to decide questions of “arbitrability.” See, e.g., Dish Network, 900 F.3d at 1244–46;
Simply Wireless, 877 F.3d at 525, 527–28; Awuah, 554
F.3d at 9, 11; Terminix Int’l Co., 432 F.3d at 1332. And
on its own terms, Piersing’s reading of the agreement
doesn’t make much sense. He reads the agreement to
say that the arbitrator shall have the power to determine the scope of the agreement only as to claims that
fall within the scope of the agreement. Yet that reading
would render the AAA’s jurisdictional rule superfluous.
It’s true that some courts have read similar provisions more narrowly when an arbitration agreement
carves out certain claims from the very provision that
incorporates the AAA Rules. See, e.g., Archer & White
Sales, Inc. v. Henry Schein, Inc., 935 F.3d 274, 280–82
(5th Cir. 2019), cert. granted ___ S. Ct. ___, 2020 WL
3146679 (June 15, 2020). Imagine that Piersing’s arbitration agreement said that “the arbitration (except
as to antitrust claims against non-signatories) will
be conducted in accordance with then-current [AAA
Rules].” In that scenario, one might think that the
agreement “incorporates the AAA rules—and therefore delegates arbitrability—for all disputes except
those under the carve-out.” Id. at 281. But to the extent that Piersing’s arbitration agreement carves out
certain claims from arbitration, it does so from the
agreement in general, not from the provision that incorporates the AAA Rules. So the carveout goes to the

App. 13
scope of the agreement—a question that the agreement
otherwise delegates to the arbitrator—not the scope of
the arbitrator’s authority to decide questions of “arbitrability.” See id. (describing the “placement of the
carve-out” as “dispositive”); see also Oracle Am., Inc. v.
Myriad Grp. A.G., 724 F.3d 1069, 1076 (9th Cir. 2013)
(warning parties not to “conflate[ ] the scope of the arbitration clause . . . with the question of who decides
arbitrability”); Ally Align Health, Inc. v. Signature
Advantage, LLC, 574 S.W.3d 753, 757–58 (Ky. 2019)
(same). And that’s probably why Piersing doesn’t raise
any argument about the carveout in his agreement.
The AAA Rules. Piersing next offers two reasons
why, in his view, the AAA Rules don’t require him to
arbitrate the question of “arbitrability” at issue in this
case. Neither has merit.
Piersing first argues that the relevant AAA rule
addresses only the “existence, scope or validity” of his
arbitration agreement, not whether a non-signatory
may enforce the agreement under state contract law.
See Arthur Andersen LLP v. Carlisle, 556 U.S. 624,
630–31 (2009) (explaining that state contract law
sometimes allows non-signatories to enforce arbitration agreements under the Federal Arbitration Act).
But Piersing overlooks key language in the rule. In
full, the rule provides that “[t]he arbitrator shall have
the power to rule on his or her own jurisdiction, including any objections with respect to the existence, scope
or validity of the arbitration agreement.” R. 61-6, Pg.
ID 989 (emphasis added). The term “including” shows
that the latter issues—“existence, scope or validity”—

App. 14
are meant to illustrate rather than exhaust the concept of “jurisdiction.” See, e.g., Burgess v. United States,
553 U.S. 124, 131 n.3 (2008). So the real issue is
whether the question here goes to the arbitrator’s
“jurisdiction.”
Piersing doesn’t dispute that the question here
goes to the arbitrator’s jurisdiction. In fact, he himself
says that whether Domino’s can enforce the arbitration
agreement against him under state contract law involves a “question of arbitrability.” Piersing Br. at 9.
Hence the AAA Rules cover the question. See, e.g.,
Eckert/Wordell Architects, Inc. v. FJM Props. of
Willmar, LLC, 756 F.3d 1098, 1100 (8th Cir. 2014);
Anderton v. Practice-Monroeville, P.C., 164 So. 3d 1094,
1101–02 (Ala. 2014); cf. Brittania-U Nigeria, Ltd. v.
Chevron USA, Inc., 866 F.3d 709, 715 (5th Cir. 2017)
(holding the same for similarly worded arbitral rules);
Apollo Comput., Inc. v. Berg, 886 F.2d 469, 473 (1st Cir.
1989) (same).
This court has treated the non-signatory question
differently when the non-signatory opposes arbitration. Imagine, for instance, that Piersing had never
signed the arbitration agreement. In that context, our
court has said, the question goes to the very “existence
of [a valid arbitration] agreement” and thus the court
must itself resolve the question even if the agreement
incorporates the AAA Rules. In re: Auto. Parts Antitrust
Litig., 951 F.3d at 385; see also DK Joint Venture 1 v.
Weyand, 649 F.3d 310, 317 (5th Cir. 2011) (same);
cf. 7 Bruner & O’Connor on Construction Law § 21:93
(noting that “arbitrators and judges often draw

App. 15
distinctions between what might be called ‘consenting
non-signatories’ (which seek to arbitrate) and ‘nonconsenting non-signatories’ (which resist arbitration)”
(cleaned up)). But Piersing doesn’t challenge the “existence” of the arbitration agreement here. Probably
because he signed it.
Piersing also argues that even if the relevant AAA
rule gives arbitrators the power to decide questions of
“arbitrability,” it doesn’t give them the exclusive power
to do so. Piersing is right that the rule doesn’t include
the word “exclusive.” But in law the expression of one
thing often implies the exclusion of other things. See,
e.g., Bruesewitz v. Wyeth LLC, 562 U.S. 223, 232–33
(2011). And the same insight holds true in life. Imagine
that during dinner one of your children asks whether
she can use the car that evening, and you reply, “Sure,
you can have the car tonight.” Your other children will
understand that this child is the only person who
should use the car that evening even if you don’t expressly say as much.
Arbitration agreements may be less fun than a
night out with friends. But the same rules of English
apply. Most people who read the sentence, “[t]he arbitrator shall have the power to rule on his or her own
jurisdiction,” wouldn’t then think “but a court may also
rule on this issue.” And things would get pretty chaotic
if the rule were read this way. It would lead to a race
to the courthouse (or arbitrator’s forum) to have each
party’s preferred decisionmaker be the first to rule
on the issue. For if a court ruled on the issue first,
then that ruling could bind the arbitrator under the

App. 16
doctrine of res judicata. See, e.g., Aircraft Braking Sys.
Corp. v. Local 856, Int’l Union, United Auto. Workers,
97 F.3d 155, 159 (6th Cir. 1996). But if the arbitrator
ruled on the issue first, then that ruling would be subject to an exceedingly narrow form of judicial review.
See, e.g., Nationwide Mut. Ins. Co. v. Home Ins. Co., 429
F.3d 640, 643 (6th Cir. 2005); see also First Options, 514
U.S. at 942 (explaining that a court will set aside an
arbitration decision involving an issue on which the
parties agreed to arbitrate “only in very unusual circumstances”). All this would suggest that the AAA
Rules are best read to give arbitrators the exclusive
authority to decide questions of “arbitrability.”
Still, there may be a kernel of truth to Piersing’s
argument. The relevant AAA rule looks like what’s
known in the world of international arbitration as a
“competence-competence” clause. See generally Restatement (Third) of the U.S. Law of Int’l Commercial
and Inv’r-State Arbitration § 2.8 (2019). And there’s
reason to think that these clauses—when first added
to the rules of arbitral institutions almost a century
ago—were not meant to give arbitrators the exclusive
authority to decide their jurisdiction. They simply confirmed that arbitrators could address their jurisdiction. See Richard W. Hulbert, Institutional Rules and
Arbitral Jurisdiction: When Party Intent Is Not “Clear
and Unmistakable,” 17 Am. Rev. Int’l Arb. 545, 551–63
(2006).
Yet the problem for Piersing is that the AAA seems
to have adopted its jurisdictional rule for a different
reason: namely, to provide “clear and unmistakable”

App. 17
evidence that the parties agreed to arbitrate “arbitrability.” That’s at least how the AAA and other
sources described the rule at the time of its adoption.
See, e.g., Alan Scott Rau, Arbitrating “Arbitrability,”
7 World Arb. & Mediation Rev. 487, 542–43 (2013)
(collecting evidence); AAA Revises Commercial Arbitration Rules, 53 Disp. Resol. J. 4, 96 (1998) (describing the new rule as a response to the Supreme
Court’s decision in First Options). But see Hulbert,
supra, at 563 (reading the evidence differently). And
that understanding would seem to undercut any comparison between the AAA’s jurisdictional rule and traditional “competence-competence” clauses.
Whatever you think of all this history, in the end
we need not rely on it to resolve this case. The real issue here isn’t how an arbitrator would have understood the jurisdictional rule in 1918, but how the
parties would have understood it in 2018 (when Piersing signed his agreement). See Rent-A-Center, 561 U.S.
at 69 n.1 (describing the “clear and unmistakable”
standard as about “the parties’ manifestation of intent”). At that time, almost every circuit court in the
country—including Piersing’s local regional circuit—
had held that this rule or similar ones gave arbitrators
the exclusive authority to arbitrate “arbitrability.” See,
e.g., Brennan, 796 F.3d at 1130–31. Washington law
pointed to the same conclusion. See Raven Offshore
Yacht, 400 P.3d at 349–50. As did the plain text of the
rule itself. It’s often said that parties bargain in the
shadow of the law. To adopt a different understanding

App. 18
of the rule now would deprive countless parties of the
benefit of their bargain.
Circuit Precedent. Piersing next claims that our
circuit has already held that the incorporation of the
AAA Rules doesn’t provide “clear and unmistakable”
evidence that the parties agreed to arbitrate “arbitrability.” But the cases he cites address two distinct sets
of issues.
One line of cases addresses whether the incorporation of arbitral rules from the National Association
of Securities Dealers provides “clear and unmistakable” evidence that the parties agreed to arbitrate a specific question of “arbitrability.” See, e.g., Smith Barney,
Inc. v. Sarver, 108 F.3d 92, 96–97 (6th Cir. 1997), abrogated on other grounds by Vaden v. Discover Bank, 556
U.S. 49 (2009). But nothing in those rules—at least
those discussed in the opinion—spoke to the arbitrator’s power to address “jurisdiction.” And nothing in
our decision said that the incorporation of arbitral
rules can never amount to “clear and unmistakable” evidence. Instead, our decision turned on the specific arbitral rules and the specific question of “arbitrability.”
See Smith Barney, 108 F.3d at 96–97. As it turns out,
the question in that case did not even involve one of
“arbitrability.” See Howsam v. Dean Witter Reynolds,
Inc., 537 U.S. 79, 83–86 (2002).
What’s more, two of our sister circuits have concluded that the arbitral rules at issue in that case did
not provide “clear and unmistakable” evidence, while
the arbitral rules at issue in this case do. Compare

App. 19
Cogswell v. Merrill Lynch, Pierce, Fenner & Smith Inc.,
78 F.3d 474, 480–81 (10th Cir. 1996), and Merrill
Lynch, Pierce, Fenner & Smith, Inc. v. Cohen, 62 F.3d
381, 384 (11th Cir. 1995), with Dish Network, 900 F.3d
at 1246, and Terminix Int’l Co., 432 F.3d at 1332. Piersing hasn’t given us any reason not to draw the same
distinction.
The second line of cases addresses whether the
incorporation of the AAA Rules provides “clear and unmistakable” evidence that the parties agreed to arbitrate whether to allow classwide arbitration. See, e.g.,
AlixPartners, LLP v. Brewington, 836 F.3d 543, 553 (6th
Cir. 2016); Huffman v. Hilltop Cos., LLC, 747 F.3d 391,
393–94, 398–99 (6th Cir. 2014); Reed Elsevier, Inc. ex
rel. LexisNexis Div. v. Crockett, 734 F.3d 594, 599–600
(6th Cir. 2013). But again, these cases turned on the
reasoning that nothing in the AAA Rules expressly empowers arbitrators to decide this issue. See, e.g., Reed
Elsevier, 734 F.3d at 600. And again, two of our sister
circuits have distinguished between the question in
those cases and the question in this case based on the
different structure of the rules and the unique concerns raised by classwide arbitration. See Richardson,
2020 WL 2028523, at *2 n.2; Catamaran Corp. v. Towncrest Pharmacy, 864 F.3d 966, 973 & n.4 (8th Cir. 2017);
see also JPay, Inc. v. Kobel, 904 F.3d 923, 945–47 (11th
Cir. 2018) (Graham, J., concurring in part and dissenting in part).
It’s true that a few circuits have reasoned that all
questions of “arbitrability”—whether related to bilateral or classwide arbitration—should be treated the

App. 20
same way. See JPay, 904 F.3d at 942–44; Dish Network,
900 F.3d at 1247–48; Wells Fargo Advisors, 884 F.3d at
398–99. But they did so in holding that the incorporation of the AAA Rules provides “clear and unmistakable” evidence as to all questions of “arbitrability.” That
hardly provides us a basis to hold that the Rules provide such evidence as to none of them. Whatever side
has the better of this debate, all circuits agree that the
incorporation of the AAA provides “clear and unmistakable” evidence here.
“Clear and Unmistakable.” Piersing also insists
that, even if the incorporation of the AAA Rules provides evidence that the parties agreed to arbitrate “arbitrability,” it’s not “clear and unmistakable” evidence.
But his assertion to this effect runs into a solid wall
of contrary authority. See, e.g., Awuah, 554 F.3d at 11
(describing the AAA Rule as “about as ‘clear and unmistakable’ as language can get”). Indeed, at the time
Piersing signed his arbitration agreement, he not only
had the benefit of the text of the agreement but also
judicial precedent from both his regional circuit and a
local state court telling him that the incorporation of
arbitral rules can provide “clear and unmistakable” evidence that the parties agreed to arbitrate “arbitrability.” See Brennan, 796 F.3d at 1130–31; Raven Offshore
Yacht, 400 P.3d at 349–50. And even if we don’t expect
Piersing to read judicial decisions, he certified in his
arbitration agreement that he had time to obtain advice from an attorney (who we do expect to read such
decisions). Cf. First Options, 514 U.S. at 946 (referring
to local circuit precedent in evaluating whether the

App. 21
parties had “clearly” agreed to arbitrate “arbitrability”). Given all this, Piersing had ample notice about
the meaning and effect of the AAA Rules.
Piersing says that we should distinguish his case
because he’s not a sophisticated party. But nothing in
the Federal Arbitration Act purports to distinguish between “sophisticated” and “unsophisticated” parties.
Cf. AT&T Mobility LLC v. Concepcion, 563 U.S. 333,
346 n.5 (2011). And as judges, we have no authority to
redline Congress’s work. That’s probably why other circuit courts have declined to adopt Piersing’s proposed
distinction. See, e.g., Richardson, 811 F. App’x at 104;
Arnold, 890 F.3d at 552 & n.5 (collecting cases). We see
no reason to be the first.
Policy. Piersing finally invokes a policy concern:
that a ruling for Domino’s would mean that anyone
could force him to arbitrate “arbitrability” no matter
how frivolous the argument for arbitration. But just
last year, the Supreme Court rejected a nearly identical argument about “frivolous motions to compel arbitration.” Henry Schein, 139 S. Ct. at 531. The Court
explained that—whatever the merits of this policy
concern—it couldn’t “rewrite” the text of the Federal
Arbitration Act “simply to accommodate [this] concern.”
Id. And it also noted that the concern was “overstate[d]” because arbitrators can quickly resolve frivolous motions and in some cases even impose sanctions
for such motions. Id.
Keep in mind that the question here is quite narrow. It’s not about the merits of the case. It’s not even

App. 22
about whether the parties have to arbitrate the merits.
Instead, it’s about who should decide whether the parties have to arbitrate the merits. And as the Supreme
Court has often said, parties don’t give up any of their
substantive rights when they choose to arbitrate an
issue; they simply select a different forum to resolve
their dispute. See, e.g., Preston, 552 U.S. at 359. That’s
all that happened here.
C.
Aside from the merits, Piersing raises two other
arguments. Neither persuades.
Leave to Amend. Piersing argues that the district
court erred when it refused him leave to amend his
complaint. Yet the record makes clear that the court
never ruled on this issue. Why? Because Piersing never
filed a motion for leave to amend—as contemplated by
the Federal Rules of Civil Procedure as well as the
local rules. See D.E.&J. Ltd. P’ship v. Conaway, 133 F.
App’x 994, 1001 (6th Cir. 2005) (citing E.D. Mich. L.R.
15.1); PR Diamonds, Inc. v. Chandler, 91 F. App’x 418,
444 (6th Cir. 2004) (citing Fed. R. Civ. P. 7(b)). Instead,
Piersing simply included a three-sentence request to
“narrow” his claims at the end of his brief in opposition to the motion to compel arbitration. In doing so,
Piersing didn’t cite any legal authority for his request
or list it in his brief ’s statement of issues. The district
court’s failure to address such a cursory request hardly
amounts to an abuse of discretion. See, e.g., Crosby v.
Twitter, Inc., 921 F.3d 617, 627–28 (6th Cir. 2019); Pulte

App. 23
Homes, Inc. v. Laborers’ Int’l Union of N. Am., 648 F.3d
295, 305 (6th Cir. 2011).
Vacatur of the Opinion. Piersing also asks us to
vacate the portions of the district court’s opinion that
purport to decide whether Domino’s can enforce the arbitration agreement under state contract law (specifically, equitable estoppel). He rightly points out that
this question should be decided by an arbitrator, not a
court. But even so, his request misunderstands our
role: “[o]ur job is ‘to correct wrong judgments, not to
revise opinions.’ ” Flight Options, LLC v. Int’l Bhd. of
Teamsters, Local 1108, 873 F.3d 540, 546 (6th Cir. 2017)
(quoting Herb v. Pitcairn, 324 U.S. 117, 126, 65 S.Ct.
459, 89 L.Ed. 789 (1945)); see also ASARCO, Inc. v. Sec’y
of Labor, 206 F.3d 720, 722 (6th Cir. 2000) (“Appellate
courts review judgments, not statements in an opinion.”). We understand the district court’s “judgment” in
this case to be its order to proceed to arbitration—
nothing more. See 28 U.S.C. § 2106 (noting an appellate
court’s power to “modify . . . any judgment, decree, or
order of a court lawfully brought before it for review”).
And whatever else the court’s opinion says, our opinion
makes clear that the arbitrator should decide for itself
whether Domino’s can enforce the arbitration agreement. We’ll leave matters at that.
We affirm.

App. 24
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
HARLEY BLANTON and
DEREK PIERSING, on
Behalf of Themselves and
All Others Similar Situated,
Plaintiffs,
v.
DOMINO’S PIZZA
FRANCHISING LLC, a
Delaware Limited Liability Company; DOMINO’S
PIZZA MASTER ISSUER
LLC, a Delaware Limited
Liability Company;
DOMINIO’S PIZZA LLC,
a Michigan Limited Liability Corporation; and
DOMINO’S PIZZA, Inc.,
a Delaware Corporation.

Case No. 18-13207
Hon. Victoria A. Roberts

Defendants.
/
ORDER REGARING DEFENDANTS’ MOTION
TO COMPEL ARBITRATION AND DISMISS
OR STAY PROCEEDINGS [ECF No. 61]
(Filed Oct. 25, 2019)
I.

INTRODUCTION

The issue before the Court is whether Harley
Blanton (“Blanton”) and Derek Piersing (“Piersing”)

App. 25
(“Plaintiffs”) may proceed on their claims against Domino’s Pizza Franchising LLC, Domino’s Pizza Master
Issuer LLC, Domino’s Pizza LLC, and Domino’s Pizza,
Inc. (“Domino’s”) or proceed to arbitration under employment agreements they entered into.
Plaintiffs are former employees of Domino’s franchisees. The franchisees are not named as parties to
this lawsuit. Plaintiffs sue Domino’s on behalf of
themselves and all others similarly situated. Plaintiffs
allege a conspiracy between Domino’s and its franchisees to suppress wages and limit employment opportunities. They sue under the Clayton Act (15 U.S.C.
§§ 15 and 26), the Sherman Act (15 U.S.C. § 4), and
the Washington Consumer Protection Act (Wash. Rev.
Code 19.86.030) (only to the Washington subclass).
As employees of Domino’s franchisees, Plaintiffs
signed contracts agreeing to submit employmentrelated claims to arbitration.
Domino’s says Plaintiffs’ claims against it are
subject to the arbitration agreements and moves to
dismiss or, in the alternative, stay proceedings and
compel arbitration.
For the reasons below, the Court GRANTS Defendants’ Motion to Dismiss.
II.

LEGAL STANDARD

To survive a motion to dismiss, the nonmoving
party must allege enough facts to state a claim to relief
that is plausible on its face. Bell Atlantic Corp. v.

App. 26
Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007). The facts must be construed in the
light most favorable to the nonmoving party. Power &
Tel. Supply Co. v. SunTrust Banks, Inc., 447 F.3d 923,
929–30 (6th Cir.2006) (quoting Bovee v. Coopers &
Lybrand C.P.A., 272 F.3d 356, 360 (6th Cir. 2001)).
The Federal Arbitration Act (“FAA”) requires
courts to “rigorously enforce” arbitration agreements.
It outlines a “strong federal policy in favor of enforcing
arbitration agreements.” Dean Witter Reynolds, Inc. v.
Byrd, 470 U.S. 213, 217, 221, 105 S.Ct. 1238, 84 L.Ed.2d
158 (1985). Any doubts concerning the scope of arbitrable issues should be resolved in favor of arbitration.
Moses H. Cone Mem’l Hosp. v. Mercury Constr. Corp.,
460 U.S. 1, 24-25, 103 S.Ct. 927, 74 L.Ed.2d 765
(1983).
Questions about the interpretation and construction of arbitration agreements are governed by federal
substantive law. See, e.g., Moses H. Cone Memorial Hospital v. Mercury Construction Corp., 460 U.S. 1, 25, 103
S.Ct. 927, 74 L.Ed.2d 765 (1983). The party opposing
arbitration has the burden to show that the agreement
is not enforceable. Green Tree Financial Corp.—Alabama v. Randolph, 531 U.S. 79, 91–92, 121 S.Ct. 513,
148 L.Ed.2d 373 (2000).

App. 27
III. ANALYSIS
1.

Plaintiffs say that because Domino’s did
not sign the arbitration agreements, it cannot compel arbitration, and the delegation
clauses are invalid

Plaintiffs’ argument is first about contract formation: they say that Domino’s did not sign the arbitration agreements, and so it cannot compel
arbitration or invoke the delegation clauses.
Delegation clauses are clauses in the arbitration
agreements which require “gateway” questions of “arbitrability”—whether the dispute is arbitrable or not,
including any issues of scope, validity, or jurisdiction—
to go to the arbitrator instead of a court. This argument
applies to both Blanton and Piersing’s arbitration
agreements.
Piersing also argues that his arbitration agreement has no delegation clause at all. Domino’s says
that there are valid delegation clauses pertaining to
both agreements and it may invoke them.
There must be “clear and unmistakable” evidence
that the parties intended the arbitrator to decide questions of arbitrability. First Options of Chicago, Inc. v.
Kaplan, 514 U.S. 938, 944 (1995). Absent “clear and unmistakable” evidence that the arbitrator decides questions of arbitrability, the Court has jurisdiction.

App. 28
A. The Arbitration Agreements
Blanton and Piersing’s arbitration agreements
differ; the Court considers them separately. The Court
first addresses whether Domino’s can compel arbitration with either party, and then turns to whether there
is a valid delegation clause in each arbitration agreement.
Blanton
Blanton signed an arbitration agreement when he
began employment at Wilson Pizza Company (“Wilson
Pizza”). He says this arbitration agreement is invalid
because Domino’s did not sign it, and Domino’s cannot
invoke the delegation clause. Domino’s contends that
the broad definition of the “Company” as well as the
broad language of the delegation clause, includes Domino’s.
The Court first examines whether Domino’s is a
party to the arbitration agreement under the contract
language.
a. Contract formation is a question of
state law
Blanton’s arbitration agreement says “this Arbitration Agreement will be governed by the Federal
Arbitration Act. . . . All other legal decisions shall be
determined by the federal, state or local law applicable
in the state where the Team Member primarily works.”
[ECF No. 61-3, PageID.974]

App. 29
Federal courts apply state law to determine
whether ordinary contract law invalidates arbitration
agreements. See, e.g., Doctor’s Associates, Inc. v. Casarotto, 517 U.S. 681, 687, 116 S.Ct. 1652, 134 L.Ed.2d
902 (1996). “[T]raditional principles of state law” determine whether a “contract [may] be enforced by or
against nonparties to the contract through . . . thirdparty beneficiary theories . . . and estoppel.” Arthur
Andersen LLP v. Carlisle, 556 U.S. 624, 631, 129 S.Ct.
1896, 173 L.Ed.2d 832 (2009) (citation and internal
quotation marks omitted).
Blanton signed the arbitration agreement and
worked in Indiana; Indiana law applies to his contract
formation argument.
b. Domino’s is included in the plain language of the arbitration agreement
The Blanton arbitration agreement states:
In this Arbitration Agreement, the term “the
Company” refers to Wilson Pizza Company,
and includes its parents, franchisors, subsidiaries, affiliates, predecessors, successors, and
assigns . . . the duty to arbitrate under the Arbitration Agreement is mutual, and the decision to accept or to continue employment and
to execute this Arbitration Agreement means
that the Team Member and the Company
have agreed to and are bound by this Arbitration Agreement. [ECF No. 61-3, PageID.974]

App. 30
This language is clear and unmistakable. Domino’s, as the franchisor of Wilson Pizza, is included in
the definition of “the Company.”
Blanton argues the inclusion of “franchisors” in
the definition of “Company” does not include Domino’s
as a signatory. Blanton relies on Daimler Chrylser
Corp. v. Franklin, 814 N.E.2d 281 (Ind. App. Ct. 2004).
But Daimler is factually dissimilar to this case.
In Daimler, an automobile manufacturer attempted to compel arbitration. It was not a party to the
contract. Id. The parties to the contract were the car
dealership and the purchaser. Id. The arbitration
agreement included the “[dealership’s] employees,
agents, successors or assigns” as parties who could
compel, and who were required to, arbitrate. Id. The
automobile manufacturer was not an employee, agent,
successor, or assign, and the court denied its motion to
compel arbitration. Id. at 285. Here, the definition of
“Company” includes Domino’s. Daimler is not instructive, and Blanton points to no other authority.
Domino’s is “the Company” under the arbitration
agreement and can compel arbitration.
Piersing
Piersing signed an arbitration agreement when he
began employment at Carpe Diem Pizza, Inc. (“Carpe
Diem”). The parties:
. . . mutually promise, agree, and consent to
resolve any claim covered by this Agreement

App. 31
through binding arbitration, rather than
through court litigation. Employee and Company further agree that such binding arbitration pursuant to this Agreement shall be the
sole and exclusive remedy for resolving any
claims or disputes covered by this Agreement.
[ECF No. 61-4, PageID.982]
Piersing argues that if there is a delegation clause
in his arbitration agreement, Domino’s cannot invoke
it because Domino’s did not sign the contract. Domino’s
says that Piersing is equitably estopped from making
this argument. Piersing says that even if this is true,
there is no delegation clause in his arbitration agreement. Domino’s contends that the arbitration agreement incorporates the rules of the American
Arbitration Association, which includes delegation of
gateway questions to the arbitrator.
The Court considers whether Piersing is equitably
estopped from avoiding arbitration with Domino’s.
a. Since Piersing alleges a conspiracy between Domino’s and its franchisees, he
is equitably estopped from avoiding arbitration with Domino’s.
Domino’s argues that it can compel arbitration as
a nonsignatory under ordinary conspiracy and agent
principles or equitable estoppel. Domino’s says that because Piersing alleges a conspiracy involving Domino’s
and its franchisees, he is estopped from avoiding arbitration by selectively suing only some of the alleged
conspirators. Piersing did not sue his employer, who he

App. 32
claims was a participant in a civil conspiracy with
Domino’s; he only sued Domino’s, a nonsignatory to the
arbitration agreements.
Equitable estoppel is an ordinary contract defense.
State law applies. Piersing signed his arbitration
agreement in Washington, and a substantial portion of
the events at issue took place in Washington. Washington law applies.
As a general principle, Washington law does not
allow nonsignatory defendants to apply equitable estoppel to a signatory plaintiff. Rajagopalan v. NoteWorld, LLC, 718 F.3d 844, 847 (9th Cir. 2013). However,
the Ninth Circuit noted that “where other circuits have
granted motions to compel arbitration on behalf of
non-signatory defendants against signatory plaintiffs,
it was essential in all of these cases that the subject
matter of the dispute was intertwined with the contract providing for arbitration.” Id. at 848 (internal
quotation and citation omitted). The court clarified
that equitable estoppel prevents a party from claiming
benefits under a contract while avoiding the burdens
of that same contract and held that equitable estoppel
did not apply because the claim in Rajagopalan was
not intertwined with the subject of the arbitration
agreement. Id.
The Washington Court of Appeals has also held
that “where the claims against a parent and subsidiary
are based on the same facts . . . and are inherently inseparable, a court may order arbitration of claims
against the parent even though the parent is not a

App. 33
party to the arbitration agreement.” Wiese v. Cach,
LLL, 358 P.3d 1213, 1222 (Wash. Ct. App. 2015) (internal quotation and citation omitted).
Piersing’s claims are intertwined with his arbitration agreement, which covers all employment-related
claims. Piersing alleges that Domino’s and Carpe Diem
are intertwined and conspired to set unfair wages and
prevent employment opportunities.
Domino’s and Carpe Diem are inseparable. The
claims against them are inseparable. Equitable estoppel applies, and Domino’s may compel Piersing to arbitration.
b. Piersing’s arguments that equitable estoppel does not apply are without merit
Piersing argues: (1) he is not trying to claim any
benefit from the arbitration agreement, so equitable
estoppel does not apply, and (2) his antitrust claims are
not intertwined with the arbitration agreement, and so
he cannot be compelled to arbitration.
i. Whether Piersing seeks direct benefits from the arbitration agreement
is irrelevant
Piersing argues that because the arbitration
agreement was a stand-alone contract and did not confer other employment benefits, equitable estoppel does
not apply.

App. 34
This argument is without merit. Piersing relies on
Javitch v. First Union Securities, Inc., 315 F.3d 619, 628
(6th Cir. 2003). The central question in Javitch was
whether the nonsignatory sought to benefit under a
contract that contained an arbitration agreement, and
therefore was estopped from avoiding arbitration. Id.
Here, Piersing signed a stand-alone arbitration agreement that compels arbitration in all claims relating to
his employment with Domino’s franchisees. Whether
Piersing directly or indirectly benefitted from the arbitration agreements is not at issue; equitable estoppel
rests on whether Piersing’s claims are intertwined
with the arbitration agreements.
ii. The anti-trust claims are intertwined
with the arbitration agreement
Piersing’s anti-trust claims allege that Domino’s is
involved in an illegal civil conspiracy with its franchisees to suppress wages and employment opportunities. Piersing makes these claims pursuant to the
Sherman Act (15 U.S.C. § 1, et seq.) and Clayton Act (15
U.S.C. § 15, et seq.). He further claims that the alleged
conspiracy between Domino’s and the franchisee signatories is not concerted misconduct. This argument is
without merit.
Piersing’s arbitration agreement covers all claims
“arising out of or relating to Employee’s employment
with the Company and/or the termination of Employee’s employment.” [ECF 61-4, PageID.982] Piersing sues over an alleged conspiracy involving hiring,

App. 35
employee opportunities, and wages. The antitrust
claims are clearly intertwined with the subject of the
arbitration agreements.
Equitable estoppel applies.
B. Both arbitration agreements have valid
delegation clauses
Blanton
Blanton’s arbitration agreement has an explicit
delegation clause.
Blanton agreed to submit all covered claims to
binding arbitration. His claims against Domino’s are
clearly within the arbitrator’s jurisdiction:
This Arbitration Agreement specifically includes all claims, disputes, and controversies
by the Team Member or on the Team Member’s behalf against the Company . . . Covered
claims include past, current and future disputes or controversies related to a Team
Member’s job application, hiring, terms and
conditions of employment, job assignments,
payment of wages, benefits, forms of compensation, or termination from the Company.
[ECF No. 61-3 at PageID.974]
The agreement also sets forth “gateway” covered
claims that must be delegated to the arbitrator. They
include:
(5) Any claim, dispute, and/or controversy
relating to the scope, validity, or

App. 36
enforceability of this Arbitration Agreement.
[Id. at PageID.975]
This gateway clause is valid delegation of arbitrability issues to the arbitrator’s jurisdiction.
Piersing
The delegation clause in Piersing’s agreement is
not as explicit as the one in Blanton’s agreement. But
Domino’s contends that the delegation clause that governs Piersing’s claims is in the contract under the
heading “Arbitration Rules and Procedures,” and that
incorporation of this rule is a valid delegation clause.
The Court agrees.
The relevant section reads:
The American Arbitration Association (“AAA”)
will administer the arbitration and the arbitration will be conducted in accordance with
the then-current AAA National Rules for the
Resolution of Employment Disputes (“AAA
Rule”). [ECF No. 61-4, PageID.982]
The applicable AAA Rule is Rule 6(a) of the Rules for
the Resolution of Employment Disputes. It says “the
arbitrator shall have the power to rule on his or her
own jurisdiction, including any objections with respect
to the existence, scope or validity of the arbitration
agreement.” [ECF No. 61-6, PageID. 989]
Circuit courts are virtually united on the question
of whether AAA rules are “clear and unmistakable”
evidence that questions of arbitrability are for the

App. 37
arbitrator. They routinely hold that incorporation of
AAA rules into arbitration agreements is clear evidence of intent to delegate questions of arbitrability
to the arbitrator. See Brennan v. Opus Bank, 796 F.3d
1125, 1130-31 (9th Cir. 2015) (citing additional case
law from seven other circuits).
Federal district courts in the Sixth Circuit regularly find that incorporation of AAA rules is clear and
unmistakable evidence that questions of arbitrability
are for the arbitrator. See e.g. Aerpio Phamaceuticals,
Inc. v. Quaggin, Case No. 1:18-cv-794, 2019 WL
4717477 at *10 (S.D. Ohio Sept. 26, 2019); Jacobs Field
Services North America, Inc. v. Wacker Polysilicon
North America, LLC, 375 F.Supp.3d 898, 913 (E.D.
Tenn. Mar. 15, 2019).
Although the Sixth Circuit has not definitively
made such a ruling, it has delegated gateway questions
of arbitrability to the arbitrator based on a contract
that incorporated AAA rules. Milan Exp. Co., Inc. v.
Applied Underwriters Captive Risk Assur. Co., Inc., 590
Fed. Appx. 482, 484 (6th Cir. 2014):
“It is the express intention of the parties to resolve any disputes arising under this Agreement without resort to litigation . . . Any
dispute or controversy that is not resolved informally . . . shall be fully determined in the
British Virgin Islands under the provisions of
the American Arbitration Association.” Id.
The court emphasized that the words “any,” “all,” and
“exclusively,” evidenced a clear and unmistakable

App. 38
agreement to arbitrate according to AAA rules. Id. This
language is similar to Piersing’s arbitration agreement.
Piersing makes an unsupported argument that incorporation of AAA rules does not grant the arbitrator
exclusive jurisdiction over gateway questions, and
cites to inapplicable case law.
In AlixPartners, LLP v. Brewington, 836 F.3d 543,
553 (6th Cir. 2016) the arbitration agreement only discussed delegating individual claims to the arbitrator;
the Sixth Circuit found that AAA rules did not delegate
classwide claims to the arbitrator because the contract
was silent on delegating classwide claims. That is not
the issue before the Court. Piersing’s arbitration agreement explicitly states that “no covered claims may be
asserted as part of a multi-plaintiff, class or collective
action. Moreover, no covered claims may proceed to arbitration on a multi-plaintiff, class or collective basis.”
[ECF No. 61-4, PageID.982] Piersing makes no arguments about classwide, as opposed to individual, arbitration.
In Smith Barney, Inc. v. Sarver, 108 F.3d 92, 95
(6th Cir. 1987) the court held that the rules of a different arbitration organization—not the AAA—were too
vague to be “clear and unmistakable” evidence of intent to delegate. Piersing’s agreement concerns AAA
rules, and Smith Barney addresses a different question
of law.
Neither AlixPartners nor Smith Barney is instructive.

App. 39
The Court finds that incorporation of AAA rules
and procedures is clear and unmistakable evidence
that questions of arbitrability are for the arbitrator,
and that Piersing’s arbitration agreement contains a
valid delegation clause.
All gateway questions related to Piersing’s claims
are for the arbitrator to decide.
2.

The Court does not have jurisdiction to
consider the Plaintiffs’ other arguments

Blanton argues that his arbitration agreement
was obtained improperly. This is a question of fact for
the arbitrator. Because of the delegation clause, the
Court does not have jurisdiction to consider this argument.
All questions regarding arbitrability and the merits of the claims are for the arbitrator to decide.
IV. CONCLUSION
The Court GRANTS Defendants’ Motion to Compel Arbitration and Dismiss. The Motion to Stay is
MOOT.
IT IS ORDERED.
s/ Victoria A. Roberts
Victoria A. Roberts
United States District Judge
Dated:

10/25/2019

App. 40
Sage HRMS
HR Actions®

Arbitration Agreement CDP

Employee Name:
Employee ID:
Action ID:
Submitter Name:
Effective Date: *

Derek Piersing
REDACTED
43413
Derek Piersing
8/15/2018

EMPLOYER:
STORE NUMBER:
SUPERVISOR:
WAGE TYPE:
BONUS GL:

CARPE DIEM PIZZA INC
7084 – UW
Joey Lark
6130 – Driver’s Wage
6131 Employee Bonus

Initiated Date:

8/15/2018 3:23 PM

Submitter Comments:
0 of 5000 max chars.
* = Required, + = Not Blankable
CURRENT VALUE

NEW VALUE

Carpe Diem Pizza Inc., DBA Domino’s Pizza
Arbitration Agreement
This Mutual Agreement to Arbitrate Claims (“Agreement”) is entered into between the Team Member
(“Employee”) and Carpe Diem Pizza, Inc. (“Company”).

App. 41
1. Binding Arbitration of Disagreements and
Claims
Employee and Company mutually promise, agree, and
consent to resolve any claim covered by this Agreement
through binding arbitration, rather than through court
litigation. Employee and Company further agree that
such binding arbitration pursuant to this Agreement
shall be the sole and exclusive remedy for resolving
any claims or disputes covered by this Agreement.
2. Claims Covered By This Agreement
The claims covered by this Agreement include any and
all claims, disputes, or controversies arising out of or
relating to Employee’s employment with the Company
and/or the termination of Employee’s employment.
Some, but not all, of the types of claims covered by this
Agreement include: claims for unpaid wages, commissions, or other compensation, including bonuses or
overtime; claims for reimbursed expenses; claims for
discrimination or harassment on the basis of race,
sex, age, national origin, religion, disability or any
other unlawful basis; claims for breach of express or
implied contract; claims for unlawful retaliation;
claims for wrongful discharge on any basis; clams for
defamation or invasion of privacy; employment-related
tort claims; claims arising under the Fair Labor Standards Act or the Family and Medical Leave Act; and
claims arising under the Employee Retirement Income
Security Act.

App. 42
For all covered claims, Employee and the Company expressly waive any right to a trial by jury. No covered
claims may be asserted as part of a multi-plaintiff,
class or collective action. Moreover, no covered claims
may proceed to arbitration on a multi-plaintiff, class
or collective basis. Rather, each alleged aggrieved employee must proceed to arbitration separately and individually, and the Employee’s arbitration proceeding
shall encompass only covered claims asserted by such
individual Employee.
This Agreement does not limit or restrict Employee’s
opportunity to seek relief from state or federal agencies such as the National Relations Board or the Equal
Employment Opportunity Commission.
3. Claims not covered by this Agreement
The only claims between Employee and the Company
not covered by this Agreement are:
a) Any claim by Employee for worker’s compensation or other related benefit plans, including unemployment compensation benefits; and
b) Any claim by either party for injunctive or
declaratory relief arising from alleged inference with
business, unfair compensation, unfair business practices, breach of the duty of loyalty, unauthorized disclosure of trade secrets or confidential information, or
the breach of covenants between parties.

App. 43
4. Arbitration Rules and Procedures
• AAA rules
The American Arbitration Association (“AAA”) will administer the arbitration and the arbitration will be
conducted in accordance with then-current AAA National Rules for the Resolution of Employment Disputes (“AAA Rule”). The AAA Rules are available on
AAA’s website (www.adr.org). The Arbitrator shall
have the authority to consider and rule on dispositive
motions to dismiss or motions established by the applicable federal district court in the district where the
arbitration proceeding is pending. The Arbitrator may
establish appropriate procedures for such motions consistent with the expedited and informal nature of arbitration proceedings.
5. Representation
The Company and the Employee have the right to retain an attorney to represent them in connection with
arbitration, but they are not required to do so.
6. Fees and Costs
The party demanding arbitration shall pay the AAA
filing fee, subject to any caps applicable under the AAA
rules. The remaining fees and expenses of the arbitration, including the cost of the arbitrator’s fee, will be
allocated in accordance with the AAA Rules. Each
party will pay for the fees and expenses of its own
attorneys, experts, witnesses, and preparation and

App. 44
presentation of evidence and any pre or post-hearing
briefs. If a party prevails on a claim for which attorney’s fees or costs are recoverable by statute or contract, the arbitrator shall have discretion to order
non-prevailing party to pay the reasonable fees and
costs of the prevailing party.
7. Discovery
The parties shall be permitted to engage in written
discovery including interrogatories, request for production of documents and requests for admissions. In
conducting discovery before such arbitration, each
party shall be limited to taking the deposition of three
persons and expert witnesses designated by another
party. If a party shows substantial need, the arbitrator
may allow that party to take additional depositions.
8. Enforcement of Award
This Agreement shall be governed by the Federal Arbitration Act (“FAA”), and any act on to compel arbitration or to enforce or vacate the arbitrator’s award shall
also be governed by the FAA and otherwise by applicable state law.
9. Relief Available
The arbitrator shall have the authority to award the
same relief to the Employee or the Company as if the
dispute had proceeded in litigation rather than arbitration.

App. 45
5. Miscellaneous Provisions
• Definitions
For purposes of the scope of the obligation to arbitrate
disputes, the term “Company” shall include King Beast
Pizza, Inc. and al related entities, all officers, directors,
agents, owners, shareholders, partners, benefit plans,
benefit plan sponsors, fiduciaries, administrators, employees (current or former) or affiliates of any of the
above; and all successors and assigns f any of the
above.
• Dismissal of Court Action
If either party pursues a covered claim against the
other in a court proceeding, the filing party agrees that
the responding party shall be entitled to a dismissal,
stay and/or injunctive relief regarding such action, and
recovery of all costs and attorney’s fees related to such
court action proceeding.
• Entire Agreement
This is the complete Agreement between the parties
on the subject of arbitration of disputes claims. This
Agreement supersedes any prior or contemporaneous
oral, written, or implied understanding on the subject,
shall survive the termination of Employee’s employment, and can only be revoked or modified upon 30
days written notice from the Company of intent to revoke or modify the Agreement. If any provision of this
Agreement is adjudged to be void and otherwise unenforceable in whole or in part, such unenforceability
shall not affect the validity of the remainder of the

App. 46
Agreement. This Agreement is not, and shall not be
constructed to create, any contract of employment, express or implied, nor does this Agreement in any way
alter the “at-will” status of Employees employment.
6. Opportunity to Review and Consult
Employee acknowledges that he/she has had the opportunity to review this Agreement with and obtain
advice from a private attorney, has had sufficient time
to, and in fact has carefully read and fully understands
all the provisions of this Agreement, and is knowingly
and voluntarily entering this Agreement.

Employee Signature Instructions
Please sign this form by entering your name in to the
signature block, todays date and the last 4 of your SSN.
Employee Signature:
Employee Signature:
Last 4 digits SSN:
Employee Signature Date:

Derek Piersing
REDACTED
8/15/2018

App. 47
Approval Instructions:
ROUTING
Derek Piersing

Timestamp:

8/15/2018 3:23:42 PM

Comments:
No approval sequence available for
this situation.
Piersing, Derek
(Admin)

Timestamp: 8/15/2018 3:23:42 PM
Comments:
Action saved into HRActions database by: HR Actions® System.
Saved on: 8/15/2018 3:23:42 PM

Submit Instructions:
Auditor Comments:
If you need assistance, please call Crystal in HR at
(360) 830-0354 X 2

